<html>
<title> - U.S. DEPARTMENT OF JUSTICE OFFICE ON VIOLENCE AGAINST WOMEN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
      U.S. DEPARTMENT OF JUSTICE OFFICE ON VIOLENCE AGAINST WOMEN

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2012

                               __________

                           Serial No. 112-155

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
72-905                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8deafde2cdeef8fef9e5e8e1fda3eee2e0a3">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

BOB GOODLATTE, Virginia              ROBERT C. ``BOBBY'' SCOTT, 
DANIEL E. LUNGREN, California        Virginia
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
TED POE, Texas                       HENRY C. ``HANK'' JOHNSON, Jr.,
JASON CHAFFETZ, Utah                   Georgia
TIM GRIFFIN, Arkansas                PEDRO R. PIERLUISI, Puerto Rico
TOM MARINO, Pennsylvania             JUDY CHU, California
TREY GOWDY, South Carolina           TED DEUTCH, Florida
SANDY ADAMS, Florida                 SHEILA JACKSON LEE, Texas
MARK AMODEI, Nevada                  MIKE QUIGLEY, Illinois
                                     JARED POLIS, Colorado

                     Caroline Lynch, Chief Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           FEBRUARY 16, 2012

                                                                   Page

                           OPENING STATEMENTS

The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     3
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......     4

                                WITNESS

Susan B. Carbon, Director, Office of Violence Against Women, U.S. 
  Department of Justice
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8


      U.S. DEPARTMENT OF JUSTICE OFFICE ON VIOLENCE AGAINST WOMEN

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2012

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                             and Homeland Security,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10 a.m., in room 
2141, Rayburn Office Building, the Honorable F. James 
Sensenbrenner, Jr., (Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Smith, Goodlatte, 
Poe, Chaffetz, Gowdy, Adams, Scott, Johnson, and Chu.
    Staff present: (Majority) Caroline Lynch, Subcommittee 
Chief Counsel; Sarah Allen, Counsel; Harold Damelin, Counsel; 
Allison Rose, Professional Staff Member, Lindsay Hamilton, 
Clerk; (Minority) Bobby Vassar, Subcommittee Chief Counsel; Ron 
LeGrand, Counsel; and Aaron Hiller, Counsel.
    Mr. Sensenbrenner. The Subcommittee will be in order.
    The Chair recognizes himself for an opening statement.
    Good morning, Director Carbon, and welcome to the 
Subcommittee.
    Today we will conduct an oversight hearing on the Office of 
Violence Against Women at the United States Department of 
Justice, which you have headed since early 2010.
    OVW was originally created in 1995 within the Office of 
Justice Programs at the Justice Department to implement the 
various grant programs established in 1994 by the passage of 
the Violence Against Women Act. In 2003, the Attorney General 
established OVW as a separate office outside of OJP where it 
remains today.
    The Violence Against Women Act, or VAWA, is an important 
law that has helped countless numbers of victims across the 
country deal with domestic violence and sexual assault. I have 
been a strong supporter of the act from the time of its initial 
passage and continuing through its two reauthorizations in 2000 
and 2005, the last of which I was the principal author of.
    VAWA established essential programs that support efforts to 
prevent and prosecute crimes of domestic violence, dating 
violence, sexual assault, and stalking, and to provide 
assistance and services to the women who are the victims of 
these crimes. Over the years, its reach has been expanded to 
help both the young and the elderly. Across the Nation, OVW's 
programs support the work of victim advocates, attorneys, 
counselors, law enforcement personnel, prosecutors, health care 
providers, and emergency shelters.
    Since its inception, OVW has awarded over $4.7 billion in 
grants and cooperative agreements to fund and support programs 
established by the 1994 law and its subsequent 
reauthorizations. Although there exists bipartisan support for 
OVW's mission, in these very difficult economic times where the 
Federal Government must drastically reduce its spending, we 
simply cannot continue to allocate resources without verifying 
that they are being used as effectively and efficiently as 
possible.
    In this context, today we examine OVW's grant programs and 
the office's performance. I am interested to learn what the 
office is doing to address possible duplication among the 
different OVW grant programs and between other Justice 
programs.
    I am also interested to learn more about OVW's grant 
oversight efforts. Both the Justice Department's Inspector 
General and the General Accounting Office have identified what 
I consider to be significant problems with respect to OVW's 
grant management. Between 2005 and 2011, the IG conducted a 
number of audits of OVW grant recipients. These reports detail 
a series of violations of grant requirements ranging from very 
significant amounts of unsupported or unallowable expenditures 
to sloppy record keeping and failure to file required reports 
accurately and in a timely manner.
    The violations include a July 2010 grantee audit report 
where the IG considered nearly $830,000 of an $890,000 OVW 
grant as unsupported or unallowable expenditures; a March 2009 
audit report of another OVW grantee about which the IG 
questioned as unsupportable or unallowable expenditures of 
$477,000 of a $681,000 OVW grant; and a September 2005 OVW 
grantee audit report in which the IG found over $1.2 million of 
a $1.9 million grant to be unsupportable or questionable 
expenditures. This is all taxpayers' money that may not have 
gone toward the intended purpose of helping victims of domestic 
violence or sexual assault.
    These IG reports cause me to wonder what grant monitoring 
procedures OVW has in place that allowed this type of grant 
abuse to occur. As we move forward, these problems need to be 
addressed and corrected during the life of the grant, not after 
the grant funds have already been expended and the IG comes in 
to do an audit.
    The acting IG recently testified before another House 
Subcommittee on the topic of Federal grant program oversight. 
In the course of her testimony, she referenced a 2010 audit of 
OVW where several errors were found by OVW peer reviewers in 
the calculation of the grant application scores, resulting in 
the incorrect ranking of some grant applications and the 
possible denial of grants to qualified applicants.
    The IG also pointed out that the same audit report 
discovered a number of instances where OVW peer reviewers were 
not properly screened for potential conflicts of interest 
before they were allowed to evaluate and score grant 
applications.
    Lastly, the IG pointed out a 2006 audit report dealing with 
the grant close-out process in which the IG recommended that 
OVW resolve $37 million in questioned costs and de-obligate 
another $14 million. The IG noted that we have had multiple 
communications with OVW since we issued our report in 2006, but 
OVW has yet to fully resolve these recommendations.
    These are serious concerns pointed out by the IG, and I 
would like to know what OVW has done to address them. It is 
essential that we be able to determine how effective VAWA 
programs are and whether grantees are providing adequate 
services for the amount of funding they receive. We need to be 
sure that the population we are trying to help, the victims of 
domestic violence and sexual assault, are actually getting the 
services that they need.
    I thank the director for appearing, and I now recognize the 
Ranking Member of the Subcommittee, the gentleman from 
Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
holding this hearing on the Office of Violence Against Women. 
And I thank Ms. Carbon for being with us today.
    The Office of Violence Against Women was created 
specifically to implement the Violence Against Women Act. By 
fostering extensive partnerships, OVW facilitates the creation 
of programs, policies, and practices aimed at ending domestic 
violence, dating violence, sexual assault, and stalking. 
Through formula programs, State coalitions, and discretionary 
grant programs, OVW has been very successful in supporting 
victims and holding perpetrators accountable through promoting 
a coordinated community response.
    Mr. Chairman, we have the responsibility to make sure that 
the grant programs are being administered effectively, and in 
July 2010, as part of an audit report, the Department of 
Justice's Office of Inspector General concluded that OVW worked 
quickly to make Recovery Act grants through a broad range of 
initiatives and that the grant selection process was 
transparent and objective.
    The OIG's report cited five areas for improvement that 
included adjustments in the peer review process, tighter 
internal controls, more effective maintenance, and others, and 
OVW has concurred and has made the recommended changes. OVW's 
commitment to effectively managing its grant programs is 
demonstrated by the adoption of the OIG's recommendations and 
the establishment of a grants financial management division. 
This unit enables OVW to be much more proactive, scrutinize 
budgets more closely, and identify other issues before they 
become problems.
    OVW programs and services have not only provided lifesaving 
services for victims and their children across the country, but 
have also yielded significant monetary benefits and averted 
victimization costs. A 2002 University of North Carolina cost-
benefit analysis of the Violence Against Women Act of 1994 
reported the net benefit of the bill is estimated to be $16.4 
billion. Because the cost is only $1.6 billion, $14.8 billion 
in averted victimization costs would be saved after the 
implementation of the act. On an individual level, VAWA is 
estimated to cost about $15.50 per U.S. woman and would be 
expected to save over $159 per woman in averted costs of 
criminalization. And so this shows that this is a fiscally 
responsible program.
    And it is still needed. In Virginia, one our of three 
homicides are related to family and intimate partner violence. 
Domestic violence programs in Virginia are seeing an escalation 
of violence resulting in increased demand for services. 
According to the Department of Justice, the rate of domestic 
violence triples when economic strain increases. The dynamics 
that fuel domestic violence can be exacerbated by an abuser 
cycling in and out of employment and a family's inability to 
pay bills and the threat of losing housing.
    When asked, through a statewide survey of recipients of 
Virginia's domestic violence services, the question was asked, 
what would you have done if the shelter had not existed? 22 
percent of service recipients indicated that they would have 
been homeless. 21 percent said they would have been compelled 
to return to their abusers, and 10 percent believed that they 
would be dead by now at the hands of their abusers.
    The Virginia Sexual and Domestic Violence Alliance reports 
that in 2009, agencies located in my congressional district 
responded to almost 12,000 hotline calls, provided advocacy 
services for over 2,000 adults and 664 children, provided 
emergency shelter to 427 adults and 400 children, but they had 
to turn away 148 families in my congressional district due to 
lack of shelter.
    Additionally in 2009, almost half the victims receiving 
advocacy services reported that they had missed time from work 
or school or lost income as a result, and 28 percent of victims 
receiving services had to relocate or became homeless as a 
result of domestic violence.
    So, Director Carbon, we look forward to your testimony and 
look forward to continuing to work with you.
    Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The Chair recognizes the Chairman of the 
full Committee, the gentleman from Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    The Office of Violence Against Women, which Director Carbon 
has headed since early 2010, plays an important role in our 
ongoing battle against domestic violence, dating violence, 
stalking, and sexual assault. It administers and oversees the 
various programs authorized by the Violence Against Women Act, 
also known as VAWA, and I have been a strong supporter of the 
act since its enactment in 1994.
    The Office on Violence Against Women was last authorized in 
2006. Today's hearing is the first step in the Judiciary 
Committee's review of VAWA and consideration of its 
reauthorization.
    The Federal Government faces significant long-term 
budgetary constraints. Agencies must get by with less. In this 
environment, the Office on Violence Against Women must focus 
its resources on its most efficient programs that allow it to 
accomplish the greatest good. Congress will not fund programs 
that are ineffective or waste money.
    But with that in mind, I hope the testimony today will 
highlight what this legislation has allowed the office to 
accomplish.
    I also look forward to hearing your thoughts, Director 
Carbon, on how the grant programs can be streamlined, 
consolidated, or even eliminated to achieve the greatest 
efficiencies possible.
    I would like to mention two examples that demonstrate how 
this legislation has helped many people.
    In February 1996, after having been authorized by the act, 
the Austin, Texas-based Texas Council on Family Violence 
launched the National Domestic Violence Hotline. Since that 
time, the group has answered nearly 2.5 million calls and saved 
many injuries and lives. The hotline is a life line for victims 
of domestic violence and their families. Over the past 15 
years, the hotline has provided victims with crisis counseling, 
information on legal advocacy, shelters, and health care 
facilities. When a victim has the courage to reach out for 
help, the hotline is there to guide them to a safe place and 
connect them to the resources they need. The National Domestic 
Violence Hotline is one of the most important services we can 
offer individuals and families who are in crisis. I am glad to 
have this beacon of hope in my home State of Texas.
    The Bexar County Family Justice Center opened its doors in 
August 2005, thanks to funding from VAWA. The center currently 
occupies over 11,000 square feet of office space in downtown 
San Antonio. Today it has over 40 on- and off-site partners who 
use a local coordinated community response to deal with the 
problem of domestic violence and provide comprehensive service 
to victims. These services include assistance with law 
enforcement and prosecution, employment and educational 
services, counseling, civil legal services, child care and 
therapy, health care, food, clothing, and housing assistance 
and emergency shelter. Each client of the center has the 
ability to see any service provider at no charge. The center 
serves over 3,700 adults and 2,700 children a year. It is 
essential that programs like these are in place to protect 
victims not just from physical bruises but from the emotional 
and mental scars as well.
    Funding through VAWA has helped women escape abuse and 
rebuild their lives. I hope that this hearing will bring to 
light ways that we can continue and improve programs through 
the Office on Violence Against Women.
    Thank you, Mr. Chairman. I yield back.
    Mr. Sensenbrenner. I thank the Chairman.
    Without objection, all Members' opening statements will be 
included in the record at this point.
    I will now introduce today's witness. Susan Carbon is 
Director of the Justice Department's Office of Violence Against 
Women, or OVW. Prior to serving as director of OVW, she served 
as supervisory judge of the New Hampshire Judicial Branch, 
Family Division from 1996 to 2010. Director Carbon was also a 
member of the Governor's Commission on Domestic and Sexual 
Violence and chaired New Hampshire's Domestic Violence Fatality 
Review Committee. She also served as president of the National 
Council Juvenile and Family Court Judges from 2007 to 2008 and 
was the president of the New Hampshire State Bar Association in 
1993 and 1994.
    She is a graduate of the University of Wisconsin, Madison, 
and then she didn't stay in Wisconsin to pay income taxes that 
helped pay for her education and left for the DePauw University 
College of Law. [Laughter.]
    The witness' written statement will be entered into the 
record in its entirety. I ask that Ms. Carbon summarize her 
testimony in 5 minutes or less, and to help you stay within 
that time limit, you have got the blinking lights in front of 
you. I now recognize Ms. Carbon.

  TESTIMONY OF SUSAN B. CARBON, DIRECTOR, OFFICE OF VIOLENCE 
           AGAINST WOMEN, U.S. DEPARTMENT OF JUSTICE

    Ms. Carbon. Thank you very much, Chairman Sensenbrenner--
and I will do my best to assure that taxes are paid--Chairman 
Smith, Ranking Member Scott, and Members of the Committee, for 
the opportunity to speak with you today about the work of the 
Office on Violence Against Women, or OVW, and the success of 
the Violence Against Women Act programs.
    Although violent crime generally has decreased nationwide, 
domestic violence, dating violence, sexual assault, and 
stalking, the crimes which are the focus of our office, still 
devastate the lives of an extraordinary number of women, men, 
youth, and children. One in five women have been raped in their 
lifetimes. One in four women and one in seven men have 
experienced severe physical violence at the hands of an 
intimate partner.
    Given the long-term consequences for victims, their 
children, and our communities, the grant programs authorized 
under VAWA are an investment in our Nation's future, and we are 
immensely grateful for your support over these past 18 years.
    OVW-administered VAWA funding has led to significant 
improvements in the civil and criminal justice systems 
encouraging victims to report these crimes, improving evidence 
collection in sexual assault and domestic violence cases, and 
increasing the issuance and enforcement of protection orders. 
With OVW leadership, communities are forging effective 
partnerships across disciplines to help victims reclaim their 
lives and hold offenders accountable.
    For instance, an OVW-funded law enforcement officer in 
Dauphin County, Pennsylvania reports that a new partnership 
with a victim advocate allows him--and I quote--to obtain more 
detailed statements and collect evidence, which might have been 
initially overlooked, and then to bring more serious charges.
    Many victims also first turn to their faith communities. So 
the City of Spartanburg, South Carolina has used OVW funds to 
train 230 ministers to date on effective responses to domestic 
violence.
    The impact of this OVW programming is evident. The 
increased availability of legal services has contributed to a 
significant reduction in domestic violence. Obtaining a 
protection order has been shown in several studies to reduce 
future assault and enhance victim safety and well-being. 4 
years after Milwaukee implemented a specialized prosecution 
unit, felony convictions had increased five-fold. Thanks to 
these types of programs, FBI data showed that between 1993 and 
2010, the number of individuals killed by an intimate partner 
declined 30 percent for women and 66 percent for men.
    These programs not only save lives, they save money. A 2002 
study found that by reducing these crimes and the subsequent 
costs to the criminal justice and health care systems, VAWA 
saved an estimated $12.6 billion in net averted social costs in 
its first 6 years alone.
    As a family court judge in New Hampshire, I saw firsthand 
what can happen when VAWA services such as legal assistance and 
transitional housing are not always available. Not only did I 
see the adults back in my courtroom, but I also saw their 
children in child protection cases and their teens in drug 
court and on our delinquency dockets. VAWA's most profound 
impact and outcome may be breaking the cycle of violence by 
reaching children and youth.
    We at OVW are committed to using every dollar of VAWA 
funding prudently. We take very seriously our grant-making 
responsibilities and we are dedicated to managing our grant 
programs effectively and with transparency. As my written 
statement reflects, I have instituted several changes to our 
policies and practices that reflect my commitment to sound 
financial management.
    The difficult economy has brought challenges to both 
victims and the programs that serve them. States are struggling 
to keep shelters and rape crisis centers open, as well as 
maintain police, prosecutors, probation officers, and even 
judges. Now more than ever, we must invest in innovative ways 
to prevent violence. OVW is using the most current research to 
target our resources. New initiatives, such as preventing 
domestic violence homicides, and funding the Austin, Texas-
based National Dating Abuse Help Line to include text 
messaging. Since launching that text capacity last September, 
the help line has conducted over 10,000 chat and text 
conversations with young people in need.
    I cannot stress enough how critical it is for Congress to 
reauthorize VAWA once again and to use this opportunity to 
sustain and strengthen our Nation's commitment and capacity to 
end violence against women. I look forward to continuing to 
work with you to improve OVW administration and our grant 
programs to combat sexual assault, domestic violence, dating 
violence, and stalking.
    I thank you very much for your interest in this critically 
important work, and I am very happy to take your questions.
    [The prepared statement of Ms. Carbon follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. Thank you very much, Ms. Carbon.
    I will begin by recognizing myself for 5 minutes.
    In my opening statement, I referred to a number of audits 
that had been done that indicate that a lot of the money in 
some of the grants that had been audited ended up being 
unsubstantiated or wasted. That is a matter of concern to all 
of us on this Committee because all of us support the thrust of 
these programs. Every time a VAWA reauthorization has come up, 
there has been overwhelming bipartisan support for it.
    There is a cloud over the program not in what its goals are 
but in how it has been administered. What are you and your 
office doing to make sure that we do not have any more really 
awful audit reports from the IG that we have had in the past 
few years?
    Ms. Carbon. Thank you, Chairman Sensenbrenner.
    We take this issue extremely seriously, and we have no more 
interest than you in seeing that there be any fraud, waste, or 
abuse of any Federal taxpayer money. In my view, it is 
critically important that the funds that Congress appropriates 
go to the victims and to our communities to make them safer. So 
we have taken several steps in our office to ensure that we 
address these concerns and welcome the opportunity to work with 
you and others to shore them up. Let me give you a number of 
examples.
    The first I would begin with is----
    Mr. Sensenbrenner. Don't have a long litany because I have 
5 minutes and I have got two follow-up questions on that.
    Ms. Carbon. Let me tell you that we have established our 
own grants financial management division which has been able to 
provide a great deal of expertise to our grantees.
    We have also looked into--you speak to the issue of the 
audits. We have looked into those very carefully and worked 
with the IG to resolve those concerns, and I am happy to give 
you detail later if you wish.
    Mr. Sensenbrenner. Could you please do that in writing? And 
without objection, it will be included in the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Carbon. Certainly.
    In addition to our grants financial management division, we 
work with the OIG to train our new grantees to ensure that they 
will understand what the requirements are so that they will not 
be in a situation where they may unwittingly make mistakes on 
how they report and handle all of their financial management 
responsibilities.
    We have also adopted a monitoring manual for all of our 
program staff to ensure that they are giving appropriate 
guidance and that we are collecting all of the information 
which the OIG has requested.
    Mr. Sensenbrenner. Now, the DOJ has got an Office of Audit 
Assessment and Management, which is called the OAAM for short. 
And their job is to look at audits and figure out how to do a 
better job. Has the OVW sought the assistance of the OAAM, and 
if so, how successful has this been?
    Ms. Carbon. Actually we do work with OAAM. That is a part 
of the Office of Justice Programs where OVW used to be. We have 
no interest in seeing redundancies, so we do work with OAAM 
when it is appropriate. One example is the high-risk grantee 
list which we have worked with OJP, COPS, and our office to 
determine those grantees that need additional assistance and 
additional oversight.
    Mr. Sensenbrenner. Now, when I was on the Science Committee 
as the Chairman, there are an awful lot of grants that the 
various agencies under the Science Committee's jurisdiction 
pass out. And then-Ranking Member George Brown and I were very, 
very supportive of the peer review system. In my opening 
statement, I indicated that there had been problems with people 
who have been peer reviewers. Have those problems been solved, 
and if not, why not?
    Ms. Carbon. Yes, they have been solved.
    Mr. Sensenbrenner. Good.
    Now, the final point--it is more of a macro issue--is the 
concern about overlap and duplication of effort with OJP and 
with the COPS program. I think everybody is going to have tough 
budget times as we get through the deficit problems. One of the 
ways we can keep the money flowing to help victims is to make 
sure it is not wasted in duplication of effort.
    What is being done with the other two agencies within 
Justice to put an end to duplication of effort?
    Ms. Carbon. Within the other offices, OJP and COPS? I am 
sorry.
    Mr. Sensenbrenner. Yes.
    Ms. Carbon. I can speak to what we do with regard to that. 
Our mission is very different from the other missions. I can 
tell you that when we review our grant applications, one of the 
questions which we ask in our solicitations is the extent to 
which grantees are seeking or have received funds from our 
office.
    We share a monitoring list which has all of the grantees 
between COPS, OJP, and OVW, but specifically with regard to 
what the other offices may do, I would have to respond further 
to you because I do not have that level of detail.
    Mr. Sensenbrenner. Thank you. And without objection, that 
will be placed in the record as well.*
---------------------------------------------------------------------------
    *The information referred to was not received by the Subcommittee 
at the time this hearing record was submitted for printing on February 
19, 2013.
---------------------------------------------------------------------------
    Mr. Sensenbrenner. The gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Carbon, on these audits that found deficiencies, this 
was not your office but was in the grantees'. Is that right? 
They weren't auditing your office. They were auditing your 
grantees.
    Ms. Carbon. Yes. The OIG audits our grantees.
    Mr. Scott. And that is where they found the irregularities, 
not in your office itself.
    Ms. Carbon. Correct.
    Mr. Scott. Now, what portion of the grantees are government 
agencies and how many are volunteer groups?
    Ms. Carbon. I don't know that I have that breakdown. We 
fund State and local governments. We fund nonprofit 
organizations. We fund educational institutions. I would be 
happy to get you that figure, but I apologize I don't have 
that.
    Mr. Scott. If you could, because State and local 
governments ought to have enough accounting capability.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Scott. But do you check the accounting capability of 
your potential grantees before you give them grants to make 
sure that they could follow through?
    Ms. Carbon. Absolutely. That is a part of the application 
process. When a grantee applies, we look at their budgets. We 
look at their accounting practices. We look at their policies. 
We also continue to review. If we determine that we may award a 
grant to them, we continue to review along the way and we will 
work with them throughout the course of the award as well.
    Mr. Scott. Now, the auditors have made recommendations. Did 
you accept and implement all of those recommendations?
    Ms. Carbon. Almost universally, yes. And the only reason I 
give you a caution is that we may have a disagreement with them 
and the OIG may agree that the recommendation ought not to have 
been made. Short of that, yes, we do work with them and resolve 
all issues.
    Mr. Scott. Generally speaking, what do you do for 
prevention, not just follow up after domestic violence? What do 
you do to prevent domestic violence?
    Ms. Carbon. We have programs to address prevention. That is 
an area that we believe is critically important because if we 
don't begin prevention, we are never going to break that cycle 
of violence.
    Some of the prevention programs we have are in our Engaging 
Men program and in how we work with our children's programs 
because we find that it is important that we are getting 
services earlier on so that we can begin to stem that tide. 
Some of our grant programs deal with that directly; others deal 
with it indirectly through intervention services. But one 
example would be through our new help line. Another example is 
through the Children Exposed to Violence program, and a third 
would be our Engaging Men program.
    Mr. Scott. Can you tell us generally why OVW needs to be a 
separate office, not combined with others?
    Ms. Carbon. The Office on Violence Against Women has a very 
distinct mission. We are established to be the leading voice on 
responding to crimes of violence against women, and Congress 
recognized the importance of making a very strong statement, 
back in 1994 when VAWA was first established and then in 2002 
when OVW was made an independent office, that the crimes of 
violence are incredibly important and that we recognize and 
give attention. When we focus and have that specialized office, 
we can dedicate the time and resources to it.
    We have recognized that it is critically important that 
this office focus on a whole different process than other 
offices within the Department of Justice do. Our mission is to 
address victim safety, offender accountability, and build 
strong communities through the coordinated community response. 
We don't believe that we have duplication, and we don't believe 
that by being separate that we are in any way inefficient. And 
to the contrary, we believe that being independent gives us a 
very strong, distinct voice within the Federal Government, 
across the country, and in fact, internationally as well.
    Mr. Scott. And if you were combined with another agency, 
you would lose that focus?
    Ms. Carbon. Yes, yes, absolutely.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Ms. Carbon. Good morning.
    Mr. Chaffetz. Hi. Good morning. Thank you for being here. I 
appreciate the work that you and your staff do. It is very 
important work and vital and makes a real difference in a lot 
of people's lives.
    I just want to touch briefly on a couple different topics. 
I wanted to, at least initially, draw your attention to these 
biennial reports to Congress that seem to have a previous 
pattern at least of tardiness. I just wanted to get your 
briefest of comments on that and just a commitment that these 
reports will be a little bit more timely.
    Ms. Carbon. Very briefly, yes. The reports, I am very happy 
to report, are now all current with the exception of one that 
we hope to have to you by the end of the month, and I will do 
my level best to ensure from this point forward they all remain 
current.
    Mr. Chaffetz. Thank you.
    Perhaps this is included in some of those reports, but if 
your staff could help me. I would love to see, perhaps over the 
last 2 to 3 years, a geographical map of where these grants are 
given, and if you could help me visually see in a synopsis form 
where these grants go. I worry sometimes that we get so diluted 
that you look at a big, heavy topic--and you know, you could 
pick probably any one of these, and we get so diffused. Do we 
really make a difference when there are just so few dollars 
going here or there? I am not saying I am advocating more 
dollars, but it is curious to me as to whether or not more 
focus would be more effective and then being able to spread 
that out. I would just like to see a geographical map of the 
grants over the last few years. If you could help me with that, 
I would appreciate it.
    The next point I wanted to make is you obviously have had 
some concerns with the amount that is spent on these 
conferences. I realize it is a minor portion of the budget, but 
it goes to the frugalness of using dollars. I know you are 
fairly new to this position, but I wanted to get your 
perspective on what you plan to do to help rein in. There is 
this one event, for instance, that there were $70,000 for a 5-
day conference attended by 60 people. It just seemed like an 
excessive amount of money to spend on event planning and wanted 
to get your brief comment on that.
    Ms. Carbon. Let me respond twofold. First of all, we 
certainly take the issue of conference costs very seriously. We 
have adopted within our office, and I think you will find 
across the Department as well, a new approval process for all 
of the conferences so that depending upon the expense for the 
conference, it is a different level of review. We have also 
established strict limitations with regard to food and 
beverage, and we are also giving guidance to grantees in 
securing locations so that they can minimize that conference 
cost as well.
    There are some conferences and some events where you can do 
training very effectively and very efficiently through a 
webinar, but there are also some where you really need in-
person training. Where you are trying to change behavior, to 
change practice, having face time with people can be critically 
important to change that kind of behavioral programming. So we 
are very mindful and we target dollars on those kinds of 
events, minimize where we can.
    Mr. Chaffetz. And I appreciate it. We will not know the 
improvements that you make unless you tell us, and so along the 
way, if you could share those with us, that would be important.
    I want to go quickly to DNA backlogs. Where within this 
would that fall? Is that something that you have engaged in? I 
am concerned about these DNA backlogs, the processing of DNA 
after violence. There have been concerns in certain pockets of 
the country, particularly in California, where sometimes these 
DNA samples have not been tested. The expense for conducting 
these DNA tests--is this something that you all are engaged in? 
Where would that fall within these groups of programs?
    Ms. Carbon. It generally falls within, actually, other 
parts of the Department, but we are very concerned that when 
there is an act of sexual assault, that there can be a test 
done promptly if the victim wishes for that to be done. And I 
think that is one distinction that is important to make because 
some people are not always ready to begin and engage the 
criminal justice process. But there are other parts of the 
Department that are--you know, NIJ, for example.
    Mr. Chaffetz. So why wouldn't this fall within your area of 
expertise?
    Ms. Carbon. The DNA testing itself is--just happens to be 
how the Department has allocated resources. Part of that is 
OVC. Part of it is NIJ. But it certainly is a concern of ours 
to ensure, and in programming and policies that we have through 
our sexual assault services program and as well through the 
SAFE Protocol, it is important that we ensure that those tests 
be done promptly. The funding of those typically does not come 
out of our grant programs, though.
    Mr. Chaffetz. And, Mr. Chairman, last question. I am sorry. 
I can't see the lights.
    Mr. Sensenbrenner. 10 seconds.
    Mr. Chaffetz. Homicide reduction. What can you possibly do 
with $4 million, and homicide reduction is one of the 
categories here.
    Ms. Carbon. We can do a lot. There is a lot of very good 
research that shows what can be done to reduce homicide through 
lethality assessments, through different coordinated responses, 
through different levels of risk intervention with victims 
whether they come to hospitals or law enforcement, and how we 
design those programs through the reduction or through fatality 
review committees and other initiatives and have a significant 
impact on reducing domestic homicide.
    Mr. Chaffetz. Thanks, Mr. Chairman.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentlewoman from California, Ms. Chu.
    Ms. Chu. Thank you, Mr. Chair.
    Well, I was once a rape crisis counselor and I went to 
emergency rooms to advocate for rape victims. So as you can 
imagine, I am very interested in the reauthorization of VAWA.
    And I was also very interested in the release of the Center 
for Disease Control National Intimate Partner and Sexual 
Violence Survey. This survey collected all kinds of detailed 
information on sexual violence, stalking, and intimate partner 
violence, victimization of adult women and men in the United 
States and gave a truer picture of violence against women and 
men that goes beyond the definition that has existed for the 
last decade, which was indeed a limited one.
    This survey is the first of its kind and it found, amongst 
other things, that if you include all forms of sexual violence, 
that one in two women have experienced sexual violence, and 
also that one in five men have experienced a form of sexual 
violence other than rape in their lifetime. And I would like to 
enter this survey into the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Chu. Well, as you know, the FBI's definition of rape 
was revised in December of last year. This revision marked the 
first update to the Federal definition in nearly a century. 
Rape is now defined as any kind of penetration of another 
person regardless of gender without the victim's consent.
    How has the Office of Violence Against Women responded to 
this long-awaited revision?
    Ms. Carbon. Thank you, Representative. We worked very 
closely with the FBI to institute this change and we were very 
proud that we were able to work with them in doing so.
    We are in the process--the responsibility actually falls 
under the house of the FBI's Criminal Justice Information 
Services Division there. We are working with them to design the 
manner in which this change can actually be implemented through 
their data systems and will continue to work with them over the 
spring and into the summer. And then we will also be working 
with our technical assistance providers to give guidance to law 
enforcement and prosecutors and others about how to implement 
that change. But this was a change which we greatly welcomed 
and were very proud to be a part of.
    Ms. Chu. Well, let me ask about immigrant victims. Many 
people believe that the immigrant victim provisions in VAWA in 
the reauthorization bill are a brand new expansion, but in 
reality those provisions have been in VAWA since 1994. So I 
know that you have been implementing some of these, but I still 
feel like there are gaps in the service. Could you talk about 
what you are doing to address immigrant victims of sexual 
violence and what more could be done?
    Ms. Carbon. That is an excellent question. Thank you.
    All of our grant programs--most of our grant programs--
serve immigrant women, and we want to do and we continue to 
train on the unique needs that immigrant women face. We have 
also encouraged, through our solicitation process, that--and in 
fact, a particular concern this year is that we want to make 
sure we are reaching underserved communities. In many of the 
reports that we receive of the evaluations of our programs, we 
find that immigrant women continue to be underserved. So we are 
asking our grantees to reach out to make sure that they are 
looking in their communities, making their resources available 
to all women, immigrants included. So it is extremely important 
that we do so.
    We also do so from another angle, which is language access. 
Many immigrants come to this country and do not speak English 
or don't speak it well, and we have worked very aggressively 
throughout the Department, not just our office, in ensuring 
that immigrant women can have all services in a language which 
they can understand so they can have full access to those 
services. If they walk into a courtroom and they don't 
understand what is happening and I or somebody else have not 
ensured that they have an interpreter, then I have not done my 
job. And we are asking our grantees to ensure that across the 
board as they do their job.
    Ms. Chu. And I would also like to ask about sexual assault. 
Most of the money from the Violence Against Women Act from the 
first decade was dedicated to domestic violence. However, 
sexual assault is, of course, equally important. So please 
share with us what your office is doing to address sexual 
violence.
    Ms. Carbon. We are ensuring that sexual violence is 
addressed in all of our grant programs where it is appropriate 
for them to be, but across the board. We also are instituting a 
number of different programs within the office, but in 
particular, you will be aware that the sexual assault services 
program, which Congress funded recently, is reaching 
communities across the country. We also have a special 
demonstration initiative looking at sexual assault, 
particularly in rural and tribal communities, to shore up those 
resources and then develop best practices that we can spread 
across the country. But we are asking that all of the programs 
make sure that they are serving victims of sexual assault, as 
well as victims of domestic violence, and we often find that 
there is a very significant overlap between the two.
    Mr. Sensenbrenner. The time of the gentlewoman has expired.
    The gentleman from Texas, Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    Ms. Carbon. Good morning.
    Mr. Poe. Thank you for being here.
    Director Carbon, last year I sent you a letter asking you 
some questions, and it is one page. And I have received from 
your office, Assistant Attorney General Ronald Welch, a five-
page, single-spaced, looks like 3-point font response. And you 
answered all my questions. So I do not want to mislead anyone 
thinking that I am complaining about your response. You 
directly answered every question I had.
    Mr. Sensenbrenner. Will the gentleman yield?
    Mr. Poe. Yes.
    Mr. Sensenbrenner. Does the gentleman want to put the 
response in the record?
    Mr. Poe. I ask unanimous consent.
    Mr. Sensenbrenner. Without objection.
    Mr. Poe. The letter and the response.
    Mr. Sensenbrenner. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Poe. All right.
    Ms. Carbon. Thank you.
    Mr. Poe. I appreciate the work your office does. I will 
probably shock some of my friends in that I actually believe we 
should consider expanding the role of your office, even 
financially.
    No one likes waste, fraud, and abuse. Based on the comments 
you responded to in the letter, you don't like it either and 
you want to get a hold of these grants and these people who 
received the grants and eliminate them from the system. I 
commend you on that and keep doing it.
    In my other life, I was down at the courthouse in Houston 
for a long time, called the Palace of Perjury. And I have been 
around so long that I remember when domestic violence was 
treated by law enforcement as a family problem, not as a social 
health issue or a crime, but it is a family problem. I am glad 
we have moved away from that concept.
    Tell me about your education process of educating police 
officers, prosecutors, and judges on this issue.
    Ms. Carbon. Thank you. That is a great question, and having 
been a former judge, I can speak from that side of the fence as 
well.
    We have a very aggressive program throughout OVW to educate 
all of the professionals who interface with victims of sexual 
assault, domestic violence, dating violence, and stalking. We 
do this through technical assistance with our technical 
assistance providers--we call them TA providers--by doing 
institutes, sometimes in-service training, sometimes technical 
assistance training. Sometimes it is through bringing groups 
together as a group of law enforcement officers. Other times it 
is in interdisciplinary fashions because it is important that 
as a coordinated community response is implemented, that people 
understand what each other's responsibilities are. But we have 
a number of technical assistance providers geared explicitly 
for law enforcement training as we do with judges and 
advocates.
    Speaking to the Judicial Institute, for example, we bring 
judges from around the country together, bring in law 
enforcement officers. We bring in other judges. We bring in 
psychologists. We bring in hosts of people to educate judges 
about how to better respond and to understand the dynamics that 
are involved. That same process of institute development is 
done with other professions as well.
    But there may be occasions where we will send a technical 
assistance provider directly to a law enforcement agency to 
work with that unit in their home turf. It is not necessarily 
always at a big conference, and I want to make sure that is 
very clear. We work one on one as needed.
    Mr. Poe. A couple of quick questions. There are those who 
claim that this legislation demands and requires mandatory 
arrests. That is just not true, is it?
    Ms. Carbon. No, that is not true.
    Mr. Poe. It is a State-by-State issue. So that is just 
another myth about VAWA. Is that correct?
    Ms. Carbon. It does not require mandatory arrest. However, 
we do ask, because it is through the arrest program, so if 
there is a grantee for that program, they certify that they 
have policies or procedures or laws in place that would 
encourage mandatory or encourage arrest but only upon probable 
cause that an arrest should be made.
    Mr. Poe. When a crime has been committed.
    Ms. Carbon. Right.
    Mr. Poe. Or probable cause that a crime has been committed.
    Ms. Carbon. That is often lost.
    Mr. Poe. The title, ``Violence Against Women Act,'' also 
deals with males, does it not?
    Ms. Carbon. It absolutely does, yes.
    Mr. Poe. And there are the same services provided under the 
act in your office that help men, and that is violence against 
men as against women. Is that correct?
    Ms. Carbon. That is correct, yes.
    Mr. Poe. Is there any reason in your opinion to change the 
name of the act?
    Ms. Carbon. No. There is no reason to.
    Mr. Poe. And so let me ask you one other question talking 
about dealing with judges. You are familiar with the case from 
Maryland, domestic violence victim, who--the judge didn't give 
her a restraining order she asked for against her husband. And 
so he came into her business and literally set her on fire. A 
wonderful lady. And we are not talking about statistics here. 
We are talking about real people that are hurt by others who 
claim they love these people.
    In your education of judges, do you talk about the use of 
restraining orders and items to keep people separated until a 
divorce is pending? Do you talk to judges about that?
    Ms. Carbon. We absolutely do. In fact, I personally was 
involved in chairing a national effort to develop a guide on 
the issuance and enforcement of civil protection orders. So I 
have both a great personal as well as professional interest in 
seeing this. We do educate judges all across the country on 
this and continue to do so.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentleman from Georgia, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Ms. Carbon, thank you for appearing before the Committee 
today. I appreciate the work that you do with the Office of 
Violence Against Women. The services that you provide to 
responding to domestic violence and sexual assault are vital. 
Because of your work, hundreds of thousands of victims have 
been served and thousands of arrests have been made. So I want 
to thank you for your diligence.
    I am heartened by the remarks of my colleague, Judge Poe, 
in terms of his understanding of the fact that there is a 
problem and he understands the extent of the problem and he 
even understands the fact that the Federal Government has an 
interest and a role to play in that regard as far as funding is 
concerned.
    And so I wanted to ask you a couple of questions.
    Number one, I know that there have been some oversight 
hearings on the other side of the Capitol about this program. I 
think Senator Grassley argued that in terms of VAWA 
reauthorization--he argued that during these difficult economic 
times, we simply can't continue to allocate resources without 
verifying that the resources are being used effectively and 
efficiently as possible, kind of throwing a little cold water 
on the efforts of your group. And I know we are in a fiscally 
very conservative time right now.
    I want you to talk about the domestic violence shelters. In 
Georgia, they turned away 2,636 victims and their children due 
to a lack of available space in 2010. And this is because of 
cuts from State governments, cuts from local governments, and 
cuts from the charitable giving community. And I would like for 
you to explain how your grants, grants to your organization, 
assist in helping these shelters.
    And also I want you to take a minute to address gun 
violence. Between 1990 and 2005, guns were used to kill more 
than two-thirds of spouses and ex-spouses who were victims of 
domestic violence. Last year, this Committee, the full 
Committee, reported out H.R. 822, the National Right to Carry 
Reciprocity Act of 2011. It was considered by this Committee 
shortly after a lady out in California at hair shop where she 
did hair, a beautician, was stalked and then killed by her 
estranged husband. And I think seven other people were killed 
also in that rampage. And we were considering at that time a 
bill that I opposed. It would have allowed States to--or it 
would have allowed a Federal permit essentially to carry guns 
in States that may not allow persons who have been convicted of 
domestic violence from being able to get a license for a 
weapon.
    Can you comment on all of that for me?
    Ms. Carbon. Under Federal law, if--I am not clear on the 
permitting process because that typically is done by local and 
State government. But on the issue of under either civil 
protection orders or under criminal cases, I am happy to 
address the firearms issue there.
    If there is a protective order in place, for example, the 
offender is not permitted to have access or possession.
    Mr. Johnson. Yes. Well, now, under the National Right to 
Carry Reciprocity Act of 2011, I don't know if I would agree 
with your current assessment if that law passes. But at any 
rate, effect on domestic violence shelters.
    Ms. Carbon. With regard to shelters, the Health and Human 
Services Department funds the shelters. We fund transitional 
housing programs and emergency housing. So we work in 
collaborative ways with them.
    But I would agree with you the need for shelters is dire. 
We do not have enough beds. They are chronically under-funded, 
and it is a great problem. So I share that concern.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentlewoman from Florida, Mrs. Adams.
    Mrs. Adams. Thank you, Mr. Chair.
    I agree that we have come a long way from the times when we 
thought that spousal abuse and everything else was a family 
matter, from someone who has firsthand experience as a law 
enforcement officer and other things.
    But I do have some questions because I do recognize this 
program. I have been in the State and dealt with it on many 
levels, both as a law enforcement officer and as a State 
legislator. So I am just going to go through a few things.
    OVW was designed to be an office separate from DOJ's two 
major grant-making components, OJP and COPS. And the DOJ IG has 
reported areas where these distinctions have caused overlap and 
duplication in grant administration.
    In what ways might consolidation of these offices, 
particularly with regard to sharing systems, procedures, other 
administrative processes, yield greater grant oversight and 
coordination and reduce costs, therefore allowing more money to 
go where it needs to be and that is the grants?
    Ms. Carbon. We share the concern that we not have any 
redundancies in the grant-making components. Two things I would 
like to stress here.
    Number one, we do have common areas where we do work--for 
example, the grants management system, the computerized system 
for applications, is something we share in common. We share the 
high-risk grantee list. There are a few other things.
    But by having our own grants financial management 
division--I think this is critically important--we believe we 
can provide a better service to the grantees because of having 
more specialized staff, more specialized training, and more 
specialized technical assistance so that, indeed, the grantees 
can be using the funds as you all intended they be. Victims are 
getting the services and the communities are being better 
served as a result of this.
    Mrs. Adams. And getting to the grants, GAO in reports and 
testimony has pointed out that the difficulties in evaluating 
effectiveness of various viable grants because grantees either 
do not collect, maintain, and report required information to 
OVW or the data provided to OVW by grantees is often difficult 
to evaluate given varying definitions among different programs. 
It is important to be able to determine how effective these 
various VAWA programs are and whether the grantees are 
providing adequate services for the amount of the funding they 
receive.
    So what specific steps has OVW taken to ensure that grant 
recipients are collecting or reporting accurate and relevant 
data, and what are the major challenges you see with regard to 
meaningful data collection in order to determine program 
effectiveness?
    Ms. Carbon. Approximately 10 years ago, Congress asked us 
to begin assessing our grant programs and we began a very 
vigorous campaign, working with the University of Southern 
Maine, to collect the kinds of data that we want. And over 
time, we have continued to improve and refine how we gather 
that data.
    Over the course of every 6 months, we will receive, review, 
and analyze over 1,000 reports from our discretionary grantees 
and others. And then we funnel that information back and forth 
with the program staff, with the University of Southern Maine 
to make sure that we are collecting accurate data. Where we 
find that the instruments are not clear, we make improvements 
to that. We have worked with the field to continue refining so 
that definitions are consistent, so that the reporting forms 
are consistent across our programs so that we are gathering 
that data. But each report is distinct to the program so that 
we can gather specific information that tells us whether----
    Mrs. Adams. So you are able to determine.
    Ms. Carbon. Absolutely, distinguishing one from another.
    Mrs. Adams. Explain OVW's relationship with the Muskie 
School of Public Service at the University of Southern Maine. 
What has OVW asked the Muskie School to do? How much has OVW 
paid the Muskie School for their services? And is the 
relationship still ongoing? What is the Muskie School still 
doing for OVW?
    Ms. Carbon. Yes. And what I was alluding to there with the 
University of Southern Maine is the Muskie School of Public 
Policy at the University of Southern Maine. We entered into an 
arrangement with them, as I say, in about 2002, if I am not 
mistaken, although they had done some work for us for a couple 
years earlier but under a different framework. And with that, 
we have paid, over the course of, I believe since 2001--it may 
be a little bit earlier--approximately $17 million to review 
our 21 different grant programs. And of course, those programs 
have increased over time. It wasn't 21 at the beginning. That 
collectively comprises about half a percent of all of our grant 
funds, which is very minimal. Congress has allowed us to spend 
up to 3 percent on assessment of that.
    So we gather this information----
    Mrs. Adams. So it is still ongoing?
    Ms. Carbon. It is still ongoing, yes.
    Mrs. Adams. I have one other quick question I want to ask, 
and that is on STOP grants, which are OVW's single largest 
grant program. It is a formula-based program to fund State and 
local law enforcement, prosecution, and victim services. All or 
almost all of these functions are also funded by the 
Department's Byrne grant, you know, the Byrne/JAG program. You 
know that program. Right?
    Ms. Carbon. Yes.
    Mrs. Adams. And the Byrne grant is also another formula-
based source of funding for the State and local governments.
    So how does the STOP funding differ from the Byrne grant 
funding, and is it necessary to have two such overlapping 
programs?
    Ms. Carbon. The STOP grant is distinguishable in its 
coordinated community response to ending sexual assault, 
domestic violence, dating violence, and stalking. And we do 
this through the implementation of--a portion of the funding 
goes to each different group, for example, a portion to 
prosecution, law enforcement, advocacy, courts, and then there 
is another fungible area that could go to anybody. We do this 
through the coordination of those services and ensuring that 
all of these four groups respond to the community-based needs 
that are determined. And it is up to the STOP administrators, 
working with their implementation team, to determine where the 
needs are, where the greatest victim service needs are, where 
the greatest offender accountability areas are, and working to 
do so.
    Mr. Sensenbrenner. The time of the gentlewoman has expired.
    The gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Nell Lindsey was a nurse at a local hospital in 
Spartanburg. Her shift had ended and she walked to her car to 
go home, but the car wouldn't start because her estranged 
husband had put sugar in the gas tank. She called a friend to 
come get her. She was headed home when they saw an ominous 
sight, which was her husband following them in his car. And he 
had been ordered to stay away from her because he had broken 
her jaw on a family vacation. He had assaulted her in an 
Appleby's parking lot, and a judge had ordered him to stay away 
from her. But he didn't. He followed her.
    And Nell and her friend Celeste did a very smart thing, Mr. 
Chairman. They headed straight for the Inman Police Department. 
They were running red lights, running stop signs, jumping over 
railroad tracks. And Nell got out her cell phone and called 
911, and they pulled into the back parking lot of the Inman 
Police Station. And just as Nell was getting out with a cell 
phone in her hand, her husband, Marion Lindsey, pulled up and 
shot her in the head four times with two children in the back 
seat.
    Marion Lindsey killed Nell Lindsey. But in a very real 
sense, the entire system failed her, from orders of protection 
that are meaningless and can't stop bullets to women being 
asked in South Carolina to go represent themselves in domestic 
violence court, to inadequate training.
    So Lynn Hawkins, through grants, Mr. Chairman--through 
grants--transformed our approach to violence against women, 
training law enforcement, training prosecutors, training 
magistrate judges, training pastors to view domestic violence 
as a crime and not a family matter. In 2008, we had zero 
domestic-related homicides in Spartanburg County. In 2011, we 
had one. So we went from leading the Nation in men killing 
women to actually doing a pretty good job.
    And, Mr. Chairman, I have got to give credit for that to 
Lynn Hawkins and the approach that she took through these 
grants, not embarrassing prosecutors and cops, but training 
them and training pastors, and putting together a CDV board 
with the community involved. And we are making tremendous 
progress in South Carolina. This stain on the collective soul 
of our State is slowly being lifted.
    But there are scores of other stories just like Nell 
Lindsey's. There is Liz Chesterman and there is Tamika Huston. 
I have got all these names running through my head of women who 
were killed by men in Spartanburg and Cherokee Counties. And we 
are making progress.
    And I want to say this with respect to Lynn and the 
oversight of this grant program, because I sat through some of 
the review sessions, the oversight is in place, at least in 
Spartanburg, and the results are in place. So that is a former 
life for me, and I don't get to talk to those people anymore. 
But if you have a chance to talk to the people in South 
Carolina, and Spartanburg in particular, my sheriff Chuck 
Wright; my chief of police, Tony Fisher; Lynn Hawkins; Barry 
Barnett, the prosecutor; Rusty Clevenger, the coroner, tell 
them thank you for taking us from first in the Nation for men 
killing women to having years where we have zero domestic-
related homicides.
    I yield back.
    Mr. Sensenbrenner. That is a very appropriate note to close 
this hearing on. I thank the gentleman from South Carolina for 
sharing this information with us. This shows that the programs 
work. We need to have them work better. We need to have them 
touch more people. We need to do better training.
    And if there are no further questions, without objection, 
the hearing is adjourned.
    [Whereupon, at 11:04 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
